                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              WELFARE-TO-WORK GRANT
                                              THE DOE FUND, INC.




                                                                    Date Issued: September 29, 2006
                                                                    Report Number: 02-06-206-03-386
U.S. Department of Labor                              September 2006
Office of Inspector General
Office of Audit                                       WELFARE-TO-WORK GRANT – THE DOE
                                                      FUND, INC.

BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number: 02-06-206-03-386, to     The audit found:
the Assistant Secretary, Employment and Training.
                                                      1) Costs were not reasonable, allowable, and
                                                         allocable to the WtW grant, resulting in
WHY READ THE REPORT                                      questioned costs of $1,599,323. The
The Doe Fund, Inc. (TDF) is a nonprofit                  questioned amount was the result of
community-based organization whose mission is            unallowable fundraising, improperly
to develop and implement cost-efficient, holistic        allocated costs, and unsupported costs.
programs that comprehensively meet the needs             Further, TDF drew down funds of $16,936 in
of a diverse homeless population. TDF was                excess of claimed costs and lacked budget
awarded a $5 million Welfare-to-Work (WtW)               modification approval to exceed line item
grant. The grant required TDF to provide women           costs.
with transitional assistance to shift welfare
recipients into unsubsidized employment that          2) Participants served were eligible for the
offered career potential for achieving economic          WtW program.
self-sufficiency. This report discusses issues
surrounding costs charged to the WtW program,         3) TDF measured and reported enrollment and
participant eligibility and performance.                 placement outcomes, but did not measure
                                                         and report outcomes for average wage at
                                                         placement or average wage one year after
WHY OIG DID THE AUDIT                                    placement. Further, TDF did not meet its
The OIG conducted a performance audit to                 enrollment and placement goals.
answer the following questions:
                                                      WHAT OIG RECOMMENDED
1) Were reported costs reasonable, allowable
   and allocable to the grant under Federal           We recommend that the Assistant Secretary for
   requirements?                                      Employment and Training:

2) Were participants eligible for the WtW             1) Recover $1,616,259 consisting of
   program?                                              questioned costs of $1,599,323 and
                                                         $16,936 of funds drawn down in excess of
3) Were performance results measured,                    claimed costs.
   reported and achieved?
                                                      2) Ensure TDF does not use Federal funds on
                                                         existing or future grants for unallowable
READ THE FULL REPORT                                     fundraising activities.
To view the report, including the scope,
methodology, and full agency response, go to:         3) Ensure TDF establishes policies and
http://www.oig.dol.gov/publicreports/oa/2006/02-06-      procedures to ensure that costs are properly
206-03-386.pdf.                                          documented and allocable to cost
                                                         objectives.

                                                      TDF did not respond to the draft report.
                                                                                                   Welfare-to-Work Grant
                                                                                                      The Doe Fund, Inc.



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

   1. Questioned Costs of $1,599,323 for Unallowable Fundraising Activities,
      Improperly Allocated Costs, and Unsupported Costs, and Funds Drawn
      Down in Excess of Claimed Costs of $16,936 .................................................... 6

   2. Participants Were Eligible for the Welfare-to-Work Program ......................... 10

   3. TDF Measured and Reported Enrollment and Placement Outcomes, but Did
      Not Measure and Report Outcomes for Average Wage at Placement or
      Average Wage One Year After Placement and Did Not Meet Its Enrollment
      and Placement Goals. ......................................................................................... 11

EXHIBITS...................................................................................................................... 13

   A. Schedule of Claimed, Sampled, and Questioned Costs .................................. 15

   B. Schedule of Questioned Fundraising Salary and Fringe Benefit Costs......... 17

APPENDICES .............................................................................................................. 19

   A. Background ......................................................................................................... 21

   B. Objectives, Scope, Methodology, and Criteria ................................................. 23

   C. Acronyms and Abbreviations ............................................................................ 25




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                                     Welfare-to-Work Grant
                                                                        The Doe Fund, Inc.




Executive Summary
This report summarizes the results of our performance audit of a $4,974,578 Welfare-to-
Work (WtW) grant awarded to The Doe Fund, Inc. (TDF) for the period October 1, 1999
through September 28, 2004. This grant required TDF to provide transitional assistance
to shift welfare recipients into unsubsidized employment that offered career potential for
achieving economic self-sufficiency. TDF was to enroll 694 female participants and
place 381 into unsubsidized employment. Services provided consisted of training in
printing and mailing, street cleaning, computers, and life skills.

The objectives were to determine the following:

     •    Were reported costs reasonable, allowable and allocable to the grant under
          Federal requirements?

     •    Were participants eligible for the WtW program?

     •    Were performance results measured, reported and achieved?


Results

Costs were not reasonable, allowable and allocable to the WtW grant resulting in
questioned costs of $1,599,323. We also found that TDF drew down funds of $16,936
in excess of claimed costs. Participants served were eligible for the WtW program.
TDF measured and reported some performance results, but did not meet most grant
goals.

   1. Questioned costs of $1,599,323 were the result of unallowable fundraising,
      improperly allocated costs, and unsupported costs. Further, TDF drew down
      funds of $16,936 in excess of claimed costs and lacked budget modification
      approval to exceed line item costs.

   2. Participants served were eligible for the WtW program. They were substance
      abusers who were welfare recipients for at least 30 months and had poor work
      histories.

   3. TDF measured and reported enrollment and placement outcomes, but did not
      measure and report outcomes for average wage at placement or average wage
      one year after placement. Further, TDF did not meet its enrollment and
      placement goals.



U.S. Department of Labor—Office of Inspector General                                     3
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Recover $1,616,259 consisting of questioned costs of $1,599,323 and $16,936 of
   funds drawn down in excess of claimed costs. In the event questioned costs are not
   sustained in totality, the Grant Officer should consider the lack of line item budget
   modifications before issuing a Final Determination.

2. Ensure TDF does not use Federal funds on existing or future grants for unallowable
   fundraising activities.

3. Ensure TDF establishes policies and procedures to ensure that costs are properly
   documented and allocable to cost objectives.


Grantee Response

TDF did not respond to the draft report.


OIG Conclusion

As TDF did not respond to the draft report, findings and recommendations remain
unchanged. The recommendations will be resolved during DOL’s formal audit
resolution process.




4                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-06-206-03-386
                                                                             Welfare-to-Work Grant
                                                                                The Doe Fund, Inc.

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report




Ms. Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


We conducted a performance audit of the $4,974,578 WtW grant number
Y-7910-9-00-81-60 awarded to TDF for the period October 1, 1999 through
September 28, 2004. This grant provided women with transitional assistance to shift
welfare recipients into unsubsidized employment providing career potential for achieving
economic self-sufficiency. TDF was to enroll 694 participants and place 381
participants in unsubsidized employment.

The audit objectives were to determine the following:

   1. Were reported costs reasonable, allowable and allocable to the grant under
      Federal requirements?

   2. Were participants eligible for the WtW program?

   3. Were performance results measured, reported and achieved?

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS) for performance audits. Our audit objectives, scope, methodology,
and criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                            5
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

Objective 1 – Were reported costs reasonable, allowable and allocable to the
grant under Federal requirements?

Results and Findings – Questioned costs of $1,599,323 for unallowable fundraising
activities, improperly allocated costs, and unsupported costs, and funds drawn down in
excess of claimed costs of $16,936.

TDF did not follow applicable administrative requirements and cost principles as
contained in 29 Code of Federal Regulations (CFR) Part 95 and Office of Management
and Budget (OMB) Circular A-122. As a result, we question costs of $1,599,323 for
unallowable fundraising activities ($614,523), improperly allocated costs ($569,054),
and unsupported costs ($415,746). Further, we identified funds drawn down in excess
of claimed costs of $16,936.

a. Fundraising - $614,523

OMB Circular A-122, Attachment B, Section 23b states: “Costs of organized fundraising,
including financial campaigns, endowment drives, solicitation of gifts and bequests, and
similar expenses incurred solely to raise capital or obtain contributions are unallowable.”

WtW participants were used to conduct fundraising activities at a TDF division, Back
Office of New York, Inc. (Back Office). Fundraising costs of $614,523 were charged to
the grant for Back Office personnel that supervised or mentored WtW participants, and
non-personnel costs used to support Back Office activities.

According to TDF staff, WtW participants were the core of the workforce at the Back
Office primarily working on TDF mailings and data entry. TDF considered Back Office
participant activities work experience, job training, computer and clerical skills.
Although these types of clerical activities were generically specified in the grant, TDF
did not disclose that the intent of these activities was to raise funds to support grantee
operations. Further, while we recognize these participants were a hard-to-employ
population and may have gained some job skills, this does not permit or justify TDF’s
circumvention of OMB Circular A-122 requirements.

As a result, TDF charged costs related to fundraising activities of $614,523 consisting of
salaries and fringe benefits of $396,6391, and non-personnel costs of $217,884 to the
WtW grant. Non-personnel costs consisted of building repairs ($81,440), office
equipment ($30,478), vehicle costs ($69,964), rent ($23,962) and computer purchases
($12,040).




1
    See Exhibit B for details.

6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-06-206-03-386
                                                                         Welfare-to-Work Grant
                                                                            The Doe Fund, Inc.

b. Improperly Allocated Costs $569,054

OMB Circular A-122, Attachment A, Section A.4a states: “A cost is allocable to a
particular cost objective, such as a grant, contract, project, service, or other activity, in
accordance with the relative benefits received.”

TDF improperly charged costs of $569,054 to the WtW grant. These improper charges
consisted of $257,725 applicable to multiple cost objectives and $311,329 of costs
claimed against the WtW grant for non-WtW activities.

Multiple Cost Objectives - $257,725

Questioned costs of $257,725 consist of $209,840 of salaries and $47,885 of related
fringe benefits charged to the WtW program. Salaries for Job Developers, Director of
Operations, and an Aftercare Counselor benefited multiple programs. Although a
portion of these costs may be allocable to the WtW grant, the grantee did not provide
data that would allow for determination of proportionate benefits received. Accordingly,
costs charged to the WtW grant have been questioned in their entirety. TDF officials
concurred that the Job Development and Aftercare Departments benefited multiple
programs.

Non-WtW Activities – $311,329

Questioned costs of $311,329 consist of $292,019 of salaries including fringe benefits,
and non-personnel costs of $19,310 that were claimed against the WtW grant for non-
WtW activities.
TDF allocated $292,019 consisting of salaries of $237,762 and fringe benefits of
$54,257 to the WtW grant for non-WtW activities. Activities included data entry, case
management, and site supervision that benefited the men’s and other non-WtW
programs. As mentioned previously, this grant was restricted to women. Further, the
salary of its Director for Community Affairs and Business Development was charged
entirely to WtW when the specified job duties did not include any WtW activities. TDF
officials concurred with $57,824 of the questioned salary costs and stated it was the
result of a clerical error.

Total non-personnel costs of $19,310 were not allocable to WtW because these costs
did not benefit the WtW grant. Questioned costs included: (1) Telecommunications
expenses for long distance telephone bills of $9,042 applicable to non-WtW locations;
(2) Invoices for food services in the amount of $2,246 that were not applicable to the
WtW grant; (3) Purchase of uniforms for $1,145 shipped to a non-WtW location; and (4)
Vehicle deposit in the amount of $6,877 for vehicles not used for the WtW grant.




U.S. Department of Labor—Office of Inspector General                                            7
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

c. Unsupported Costs $415,746

Questioned costs of $415,746 consist of $377,025 of salaries including fringe benefits,
and non-personnel costs of $38,721 for which the grantee did not provide adequate
documentation to substantiate claimed costs.

Salaries and Fringe Benefits - $377,025

OMB Circular A-122, Attachment B, Paragraph 7.m(1) and (2)(a) state:

       (1) Charges to awards for salaries and wages, whether treated as direct
       costs or indirect costs, will be based on documented payrolls approved by
       a responsible official(s) of the organization. The distribution of salaries and
       wages to awards must be supported by personnel activity reports….

       (2)(a) The reports must reflect an after-the-fact determination of the actual
       activity of each employee. Budget estimates (i.e., estimates determined before
       the services are performed) do not qualify as support for charges to awards.

Questioned costs of $377,025 consist of $306,974 for salaries and $70,051 for related
fringe benefits. TDF reported salary costs of $2,831,320 for the WtW grant. Payroll
records directly identified $2,524,346 of salary costs to the WtW grant. The difference
of $306,974 was not supported by adequate documentation. TDF claimed $208,684 of
the $306,974 were administrative salaries allocated to the grant, but could not provide
an adequate basis for these allocations nor identify the remaining difference.

Non-personnel Costs - $38,721

OMB Circular A-122, Attachment A, Section A.2.g states: “Factors affecting allowability
of costs. To be allowable under an award, costs must meet the following general
criteria . . . be adequately documented.”

Non-personnel costs of $38,721 were questioned because TDF was unable to provide
adequate documentation to determine the allowability of claimed costs. These costs
included: property and casualty insurance ($28,641), vehicle insurance ($8,567), and
telephone expenditures ($1,513).




8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-06-206-03-386
                                                                      Welfare-to-Work Grant
                                                                         The Doe Fund, Inc.

d. Other Matters

Lack of budget modification approval - $1,160,764

Special clauses of the grant, clause #1 states:

       Flexibility is allowed within the grant budget (except wages, salaries and
       fringe benefits), provided no single line item is increased or decreased by
       more than 20%. Changes in excess of 20% and any changes in wages,
       salaries and fringe benefits, MUST receive prior written approval from the
       Grant Officer.

TDF exceeded its budgeted line item authority by $1,160,764. Budgeted line item
authority was exceeded for personnel by $789,320 and fringe benefits by
$115,115. Budgeted line item authority was exceeded by more than 20 percent
on the following line items: supplies by $105,662, others by $90,651, and
equipment by $60,016. The corresponding decrease in budgeted line item costs
was predominantly applicable to the contractual costs originally budgeted at
$1,452,168, but decreased by $1,365,557 resulting in actual contractual costs of
$86,611. Per our discussion with ETA on March 23, 2006, there was no budget
approval modifying budget line items.

Excess of drawdowns over claimed costs - $16,936

TDF drew down funds in excess of claimed costs. TDF did not reimburse ETA for
excess drawdowns in the amount of $16,936. This excess represents the difference
between cumulative funds drawn of $4,974,578 and actual expenditures of $4,957,642
reported in the Financial Status Report (FSR) and the General Ledger.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Recover $1,616,259 consisting of questioned costs of $1,599,323 and $16,936 of
   funds drawn in excess of claimed costs. In the event questioned costs are not
   sustained in totality, the Grant Officer should consider the lack of line item budget
   modification approval before issuing a final determination.

2. Ensure TDF does not use Federal funds in existing or future grants for unallowable
   fundraising activities; and

3. Ensure TDF establishes policies and procedures to ensure that costs are properly
   documented and allocable to cost objectives.


U.S. Department of Labor—Office of Inspector General                                       9
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

Grantee Response

TDF did not respond to the draft report.


OIG Conclusion

As TDF did not respond to the draft report, findings and recommendations remain
unchanged. The recommendations will be resolved during DOL’s formal audit
resolution process.


Objective 2 – Were participants eligible for the WtW program?


Results – Participants Were Eligible for the WtW Program.

The grant requires that the provision governing WtW funds described in Title 20, CFR
Part 645.211 be met. The provision dictates that a minimum of 70 percent of WtW
funds must be spent to benefit hard-to-employ individuals. Furthermore, no more than
30 percent of WtW funds may be spent to assist individuals with long-term welfare
dependency. The 70 percent eligibility criterion for hard-to-employ requires that an
individual must be receiving welfare for at least 30 months and must face at least two of
three barriers to employment (has not completed secondary school or obtained a
certificate of general equivalency; requires substance abuse treatment for employment;
and/or has a poor work history).

A random sample of 86 of the 429 participant files showed that 61 sampled participants
or 71 percent were individuals that were hard-to-employ. The majority of participants
were substance abusers who were welfare recipients for at least 30 months and had
poor work histories. Further, participants were referred to TDF by New York City
Human Resources Administration (HRA) which had screened participants for WtW
eligibility.




10                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-06-206-03-386
                                                                                               Welfare-to-Work Grant
                                                                                                  The Doe Fund, Inc.

Objective 3 – Were performance results measured, reported and achieved?


Results and Findings - TDF measured and reported enrollment and placement
outcomes, but did not measure and report outcomes for average wage at placement or
average wage one year after placement and did not meet its enrollment and placement
goals.

TDF measured and reported enrollment and placement outcomes on its FSR.
However, average wage at placement and average wage one year after placement
were not measured or reported. Further, TDF did not meet its enrollment and
placement goals. Based on our analysis of TDF’s database, TDF substantially met its
average wage at placement goal.

According to the grant, TDF was required to provide transitional assistance to place
welfare recipients into unsubsidized employment and achieve economic self-sufficiency.
TDF was to serve 694 female participants and place 381 into unsubsidized
employment. Details on the grant’s performance goals and outcomes achieved are
presented below:


                              Category                                           Goal                   Outcome
  Number of Participants                                                                   694                    429
  Number of Placements                                                                     381                     99
  Cost per Placement                                                                 $13,057               $50,077¹
  Average Hourly Wage at Placement                                                     $8.50                 $8.31²
  Average Hourly Wage One Year After Placement                                         $9.00             Unavailable
  ¹ OIG Calculation (TDF Reported FSR expenditures $4,957,642 divided by 99 TDF reported Participants Placed)

  ² OIG Calculation based on TDF provided information


ETA was aware of TDF’s difficulties in meeting its performance goals; therefore, the
grant period was extended from the original two years to five years. According to the
grant, TDF was to work with HRA to publicize the pilot and recruit eligible individuals.
However, TDF management stated enrollment had been lower than anticipated
primarily due to a lack of referrals from HRA. In light of the situation, ETA approved
TDF’s grant modification request to expand the target population from substance
abusers to all female WtW eligible individuals. Interviews with ETA officials confirmed
TDF’s lower than anticipated referrals from HRA. Nevertheless, TDF could not
successfully meet its enrollment and placement goals. As a result of lower enrollments,
lower placements, and the inclusion of improperly allocated costs, cost per placement
was $50,077; nearly four times the intended goal of $13,057.



U.S. Department of Labor—Office of Inspector General                                                                    11
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

Because the grant period has expired, we are not making specific recommendations
regarding performance results. However on future awards, when performance goals
are not being met, ETA should consider if extending the grant period is the most
efficient use of funding resources.


Grantee Response

TDF did not respond to the draft report.


OIG Conclusion

As TDF did not respond to the draft report, the finding remains unchanged. Since there
were no specify recommendations regarding performance results, no further action is
required.



Elliot P. Lewis
November 14, 2005




12                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 02-06-206-03-386
                                                       Welfare-to-Work Grant
                                                          The Doe Fund, Inc.




Exhibits




U.S. Department of Labor—Office of Inspector General                     13
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                                       Welfare-to-Work Grant
                                                                          The Doe Fund, Inc.

                                                                                 EXHIBIT A

                                 The Doe Fund, Inc.
                Schedule of Claimed, Sampled, and Questioned Costs
                For the Period October 1, 1999 to September 28, 2004


                                                                 Questioned
                                                                 Costs (See
                                                                   Report         Questioned
   Cost Category       Claimed Costs       Sampled Costs         Reference)       Costs Totals
                                                                  $322,943(1a)
                                                                   237,762(1b)
                                                                   209,840(1b)
  Personnel                  $2,831,320         $2,831,320         306,974(1c)        $1,077,519
                                                                    73,696(1a)
                                                                    54,257(1b)
                                                                    47,885(1b)
  Fringe Benefits               646,035                646,035      70,051(1c)           245,889
  Travel                           1,256                    0                0                   0
                                                                    39,683(1a)
                                                                    30,478(1a)
  Equipment                     220,666                157,264       6,877(1b)             77,038
                                                                    17,276(1a)
                                                                    13,005(1a)
                                                                    12,040(1a)
                                                                     1,145(1b)
  Supplies                      644,184                237,624       8,567(1c)             52,033
  Contractual                    86,611                 82,461               0                   0
                                                                    81,440(1a)
                                                                    23,962(1a)
                                                                     9,042(1b)
                                                                     2,246(1b)
                                                                    28,641(1c)
  Other                         527,570                196,110       1,513(1c)           146,844
  Total                      $4,957,642         $4,150,814                            $1,599,323




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                             Welfare-to-Work Grant
                                                                The Doe Fund, Inc.

                                               EXHIBIT B

                             The Doe Fund
    Schedule of Questioned Fundraising Salary and Fringe Benefit Costs
           For the Period October 1, 1999 to September 28, 2004

                        B a c k O ffic e P o s itio n s            C o s ts
          D ire cto r o f O p e ra tio n s                     $ 9 9 ,5 0 1
          D ire cto r                                            6 2 ,3 6 1
          Team Leader                                            5 6 ,6 4 0
          O ffice A ssista n t                                   5 0 ,8 0 0
          O p e ra
                 p tio n s M a n a g e r                         1 5 ,2 4 3
          A d m in istra to r                                    1 3 ,9 2 8
          L a b A s sis ta n t                                   1 2 ,9 3 2
          B u s in e ss D ire c to r                             1 1 ,5 3 8
                                                             $ 3 2 2 ,9 4 3
          A v e ra g e F rin g e B e n e fits @ 2 2 .8 2 %       7 3 ,6 9 6
          T o ta l                                           $ 3 9 6 ,6 3 9




U.S. Department of Labor—Office of Inspector General                           17
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                       Welfare-to-Work Grant
                                                          The Doe Fund, Inc.




Appendices




U.S. Department of Labor—Office of Inspector General                     19
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                                      Welfare-to-Work Grant
                                                                         The Doe Fund, Inc.

                                                                             APPENDIX A
BACKGROUND

TDF was founded in 1985 as a nonprofit community-based organization in
response to the New York City homeless crisis. Its mission is to develop and
implement cost-efficient, holistic programs that comprehensively meet the needs
of a diverse homeless population. All Doe Fund programs ultimately strive to end
homelessness for the individuals they serve.

On September 30, 1999, TDF received a WtW competitive grant in the amount of
$4,974,578. The period of performance was October 1, 1999 through
September 28, 2001, extended with a modification to September 28, 2004. The grant’s
performance goals were to serve 694 female participants, and place 381 into
unsubsidized employment. Initially, the grant was to assist long-term female welfare
recipients facing multiple, significant barriers to employment, with an emphasis on
substance abuse, in becoming self-sufficient. On October 17, 2001, the grant was
modified to include all female individuals who were WtW eligible.

This grant required TDF to provide transitional assistance to shift welfare recipients into
unsubsidized employment that offered good career potential for achieving economic
self-sufficiency. Services provided consisted of training in printing and mailing, street
cleaning, computers, and life skills.




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                               U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 02-06-206-03-386
                                                                     Welfare-to-Work Grant
                                                                        The Doe Fund, Inc.

                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The Office of Inspector General conducted an audit of the WtW Grant awarded to TDF,
grant number Y-7910-9-00-81-60 in the amount of $4,974,578. The period of
performance was October 1, 1999 through September 28, 2001, extended with a
modification to September 28, 2004. The objectives were to determine the following:

        •   Were reported costs reasonable, allowable and allocable to the grant under
            Federal requirements?

        •   Were participants eligible for the WtW program?

        •   Were performance results measured, reported and achieved?

Scope

Our performance audit was conducted in accordance with GAGAS for performance
audits and included such tests as we considered necessary to satisfy the audit
objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

We conducted the audit at TDF’s administration and finance buildings located in New
York, NY and the Back Office located in Bronx, NY. Fieldwork was conducted from
August 9, 2004 to November 14, 2005. We held an exit conference with TDF officials
on September 6, 2006.

We sampled 84 percent of the reported costs of $4,957,642. We sampled $2,831,320
of personnel, $646,035 of fringe benefits, $157,264 of equipment, $237,624 of supplies,
$82,461 of contractual and $196,110 of other costs. Further, we sampled 20 percent or
86 participants from the 429 participants provided by TDF.

Methodology

We obtained an understanding of internal controls through inquiries with appropriate
personnel, inspection of relevant documentation, review of the answers to an internal


U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 02-06-206-03-386
Welfare-to-Work Grant
The Doe Fund, Inc.

control questionnaire provided by TDF’s managers, and observation of TDF’s current
operations. The nature and extent of our testing was based on the auditors’ judgment.
We audited claimed costs as reported in the grantee’s FSR. For personnel costs, we
applied analytical procedures as well as non-random selection of specific salary
distribution records to verify the reasonableness and allocability of salary charges. For
non-personnel costs, we used stratified random sampling to test account transactions
and balances. In order to be more conservative and have a higher level of confidence,
the results of these tests were not extrapolated to the universe. Questioned costs are
actual sampled findings. We examined general ledger journals and supporting
documentation such as canceled checks, vouchers, and invoices.

To determine accuracy in reported enrollment and placement, we received a database
of 429 participants enrolled and 99 participants placed. We compared the information
on the database to the information reported to ETA on the FSR. From the participant
database, we randomly selected 86 participants and reviewed their participant files for
eligibility, services provided and employment outcomes. The grant requires that a
minimum of 70 percent of WtW funds must be spent to benefit hard to employ
individuals. The majority of the participants was referred by HRA and therefore had
been screened for eligibility. We verified that each participant file contained a HRA
referral letter with the appropriate information. To analyze placements, we obtained
Unemployment Insurance (UI) information for sampled participants for the period
January 1, 2000 to June 30, 2004. UI information was not audited for accuracy or
completeness.

Criteria

The audit was performed using the grant agreement and the following criteria:

     •     20 CFR Part 645 “Welfare-to-Work (WtW) Grants; Final Rule; Interim Final
           Rule”

     •     29 CFR Part 95 “Grants And Agreements With Institutions Of Higher Education,
           Hospitals, And Other Non-Profit Organizations, And With Commercial
           Organizations, Foreign Governments, Organizations Under The Jurisdiction Of
           Foreign Governments, And International Organizations”

     •     OMB Circular A-122 “Cost Principles for Non-Profit Organizations”

     •     Social Security Act, Title IV “Grants to States for Aid and Services to Needy
           Families with Children and for Child-Welfare Services”




24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 02-06-206-03-386
                                                                 Welfare-to-Work Grant
                                                                    The Doe Fund, Inc.

                                                                       APPENDIX C
ACRONYMS AND ABBREVIATIONS


CFR           Code of Federal Regulations

DOL           U.S. Department of Labor

ETA           Employment and Training Administration

FSR           Financial Status Reports

GAGAS         Generally Accepted Government Auditing Standards

HRA           New York City Human Resources Administration

OIG           Office of Inspector General

OMB           Office of Management and Budget

TDF           The Doe Fund

UI            Unemployment Insurance

WtW           Welfare-to-Work




U.S. Department of Labor—Office of Inspector General                               25
Report Number: 02-06-206-03-386
